                 OFFICE OF
                 INSPECTOR
                 GENERAL
                 UNITED STATES POSTAL SERVICE




         Carrier Optimal Routing System
                     Phase II

                             Audit Report




                                                August 21, 2012

Report Number DR-AR-12-005
                                                                         August 21, 2012

                                               Carrier Optimal Routing System Phase ll

                                                         Report Number DR-AR-12-005




BACKGROUND:
Carrier Optimal Routing (COR) is a            and manuals were not updated. In
computer modeling carrier routing and         addition, districts did not use GPS
travel optimization program used to           devices to track route time and
configure safe and efficient travel           performance jointly with the COR
patterns for city delivery routes. The        system to perform route adjustments. As
U.S. Postal Service implemented the           a result, the Postal Service will not
system in October 2005, which has             realize over $84 million annually in cost
helped reduce workhours and vehicle           reductions in city delivery from
costs, improve carrier safety, and            consolidation of carrier routes.
establish more efficient lines-of-travel.
Our first audit reviewed system usage         WHAT THE OIG RECOMMENDED:
and the related reductions in vehicle         We recommended the vice president,
mileage for 32 districts (now 26 districts    Engineering Systems, continue to
due to consolidations and                     pursue funding availability to resolve
reorganizations).                             performance issues and implement the
                                              Web COR system. We also
This audit objective was to review            recommended the vice presidents, Area
system usage to adjust and consolidate        Operations, re-emphasize performing
routes. We also reviewed global               route adjustments using the COR
positioning system (GPS) usage in             system. Additionally, we recommended
conjunction with COR. Additionally, we        cross-training to include database
updated system usage for the districts        preparation and route adjustment
reviewed in the first audit to culminate in   processes. Lastly, we recommended the
a nationwide review.                          vice president, Delivery and Postal
                                              Operations, update city delivery
WHAT THE OIG FOUND:                           manuals to perform route adjustments
The Postal Service performed route            using the COR system.
adjustments using the COR system on
28,116 routes in the 47 districts             Link to review the entire report
reviewed. However, the Postal Service
did not make route adjustments on
63,505 routes using the COR system.
This condition occurred because the
software was not user friendly, data
preparation was labor-intensive and
time-consuming, COR system
technicians were not crossed-trained,
August 21, 2012

MEMORANDUM FOR:             DEAN J. GRANHOLM
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            MICHAEL J. AMATO
                            VICE PRESIDENT, ENGINEERING SYSTEMS

                            VICE PRESIDENTS, AREA OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Carrier Optimal Routing System
                            Phase ll (Report Number DR-AR-12-005)

This report presents the results of our audit of the U.S. Postal Service’s use of the
Carrier Optimal Routing System Phase ll (Project Number 11XG040DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Elizabeth A. Schaefer
    Philip F. Knoll
    Severo Garza
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Carrier Optimal Routing System Phase II                                                                                DR-AR-12-005




                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Use of Carrier Optimal Routing System ............................................................................. 2

Global Positioning System Usage With Carrier Optimal Routing System ......................... 6

Recommendations .............................................................................................................. 8

Management’s Comments .................................................................................................. 8

Evaluation of Management’s Comments ............................................................................ 9

Appendix A: Additional Information................................................................................... 12

   Background .................................................................................................................... 12

   Objective, Scope, and Methodology ............................................................................. 13

   Prior Audit Coverage ..................................................................................................... 14

Appendix B: Monetary Impact ........................................................................................... 15

Appendix C: Management’s Comments ........................................................................... 18
Carrier Optimal Routing System Phase II                                                                DR-AR-12-005




Introduction

This report presents the results of our second audit 1 of the U.S. Postal Service Carrier
Optimal Routing (COR) system (Project Number 11XG040DR000). Our objective was to
review the Postal Service’s use of the COR system for adjusting and consolidating
routes. We also reviewed the Postal Service’s use of the global positioning system
(GPS) in conjunction with the COR system. This audit addresses operational risk. See
Appendix A for additional information about this audit.

The Postal Service’s mission is to provide the nation with reliable, affordable, universal
mail service. Delivering the mail is the largest postal operation and also tends to be
labor- and fuel-intensive. In October 2005, the Postal Service implemented the COR
system to assist in performing route adjustments on city routes. Benefits of the COR
system include having more efficient routes as well as reduced workhours, vehicle
mileage, and delivery costs. The Postal Service must establish efficient delivery routes 2
to reduce costs while facing financial loss from declining mail volumes.

Conclusion

The Postal Service performed route adjustments using the COR system on 28,116 city
routes in the 47 districts reviewed. 3 The Postal Service did not adjust 63,505 city routes
using the COR system. Three major factors contributed to district officials’ not using the
COR system to adjust routes. Specifically:

   The COR system software is not user friendly and has limitations for preparing lines
    of travel. Additionally, the data preparation process is labor intensive and time
    consuming. 4

   District officials did not always cross-train COR technicians in COR database
    preparation and route adjustment processes to provide stability.

   City delivery handbooks and manuals were not updated to require use of the COR
    system to perform route adjustments.




1
  Use of Carrier Optimal Routing System (Report Number DR-AR-10-001, dated October 15, 2009) was conducted in
fiscal year (FY) 2009 based on a value proposition between the U.S. Postal Service Office of Inspector General (OIG)
and the Postal Service’s vice president, Delivery. We updated the route adjustments data for the districts reviewed in
the first audit in this report.
2
  The Postal Service’s business strategy, Delivery Results, Innovation, Value and Efficiency, has an initiative for the
vice president, Delivery and Post Office Operations, titled Delivery Optimization. The strategy is to optimize carrier
routes by reducing and eliminating office time and adjusting (reducing) the number of routes.
3
  This report addresses findings for the 21 districts included in Phase II.
4
  This issue was identified in the previous COR audit.
                                                             1
Carrier Optimal Routing System Phase II                                                           DR-AR-12-005




In addition, some districts with GPS devices used them to track the route time and
performance, but they did not use GPS jointly with the COR system to perform the route
adjustments. 5 An increased focus on using the COR system to adjust, align, and
consolidate routes will reduce workhours and save more than $84 million annually. See
Appendix B .

Use of Carrier Optimal Routing System

While the Postal Service completed route adjustments using the COR system on 28,116
routes, it did not complete an additional 63,505 routes in the 47 districts reviewed. The
47 districts include the 32 districts reviewed in FY 2009. These 32 districts were
reduced to 26 districts after consolidations and reorganizations in the Postal Service. In
the FY 2012 audit, we conducted fieldwork in 21 districts. The districts are identified with
an asterisk in Table 1. For the 26 districts reviewed in the first COR audit, we updated
the number of routes adjusted using the COR system only. We did not conduct any
additional fieldwork in these districts.

A Postal Service memorandum 6 and the Joint Alternate Route Adjustment Process
(JARAP) Memorandum of Understanding (MOU) 7 explained the system and the benefits
of using the COR system to perform route adjustments to properly align city delivery
routes. JARAP states that, when available, the Postal Service must use COR for route
optimization and adjustments. To adjust routes, management prepares the route
information, which includes ZIP Codes, addresses, geographic or map information, and
other pertinent route data from the Delivery Operations Information System (DOIS) and
puts the information into the COR system to adjust routes. COR system processes the
data to consolidate routes and configure each route’s line-of-travel, park points, and
route time. Management reviews the COR system results and conducts a street
validation, makes any corrections, and finalizes the route adjustments. See Table 1 for
routes not adjusted using the COR system.




5
  GPS and COR are two separate programs and district officials were not mandated by headquarters to use them
jointly to make route adjustments. However, six districts used GPS to monitor carriers after making COR route
adjustments.
6
  Carrier Optimal Route and Route Adjustment, dated January 25, 2005.
7
  JARAP MOU, dated March 22, 2011.

                                                        2
Carrier Optimal Routing System Phase II                                                                DR-AR-12-005



                                  Table 1. COR System Route Adjustments
                                                         Total           Total Adjusted
Number of                                               Existing          Routes Using            Routes Not Using
 Districts                   District                   Routes          the COR System            the COR System
      1          Alabama                                       862                   362                        500
      2          Albany*                                       871                    63                        808
      3          Appalachian                                   533                   346                        187
      4          Arizona                                     2,818                   403                      2,415
      5          Arkansas*                                     575                   108                        467
      6          Atlanta                                     1,660                   305                      1,355
      7          Baltimore                                   1,661                   231                      1,430
      8          Central Illinois                            2,453                 1,252                      1,201
      9          Central Pennsylvania*                       1,331                    39                      1,292
    10           Chicago*                                    2,284                 1,544                        740
    11           Cincinnati                                  2,628                   463                      2,165
    12           Colorado/Wyoming                            2,586                 1,385                      1,201
    13           Connecticut Valley                          3,696                   755                      2,941
    14           Dallas*                                     1,819                   735                      1,084
    15           Detroit*                                    3,519                 1,660                      1,859
    16           Gateway*                                    2,210                    96                      2,114
    17           Greater Boston                              3,727                 2,292                      1,435
    18           Greater Indiana                             1,822                   547                      1,275
    19           Greater Michigan                            1,101                   472                        629
    20           Greater South Carolina*                       665                    63                        602
    21           Greensboro                                  1,276                   848                        428
    22           Hawkeye*                                      910                   167                        743
    23           Kentuckiana                                 1,159                   394                        765
    24           Lakeland                                    3,321                 1,302                      2,019
    25           Long Island*                                2,124                   861                      1,263
    26           Los Angeles*                                2,465                   832                      1,633
    27           Mid-Carolinas*                                986                   391                        595
    28           Mississippi                                   292                   119                        173
    29           Nevada/Sierra                               1,276                   145                      1,131
    30           North Florida                               1,465                   484                        981
    31           Northern New England                          655                   188                        467
    32           Northern New Jersey*                        3,423                 1,151                      2,272
    33           Northern Ohio                               3,309                   499                      2,810
    34           Northern Virginia                           1,066                   396                        670
    35           Northland*                                  2,278                   525                      1,753
    36           Philadelphia Metro*                         2,636                   987                      1,649
    37           Richmond*                                   1,334                   170                      1,164
    38           Rio Grande*                                 2,150                   523                      1,627
    39           Salt Lake City                              1,116                   299                        817
    40           San Francisco*                              2,180                   549                      1,631
    41           Seattle*                                    2,520                   550                      1,970
    42           Sierra Coastal*                             2,709                 1,145                      1,564
    43           South Florida                               3,944                   682                      3,262
    44           South Jersey*                               2,138                   239                      1,899
    45           Suncoast                                    3,224                   582                      2,642
    46           Tennessee                                   1,436                   171                      1,265
    47           Western New York                            1,408                   796                        612
Total                                                       91,621                28,116                    63,505
Source: Postal Service Headquarters. The asterisk identifies districts reviewed in COR Phase I.


                                                          3
Carrier Optimal Routing System Phase II                                                               DR-AR-12-005



Several factors contributed to the preceding condition in the 21 districts reviewed for
COR Phase II: 8

   The COR system software is not user friendly and has limitations for preparing
    lines- of- travel. Additionally, the data preparation process continues to be labor
    intensive and time consuming.

    o COR System Limitations: Officials stated the COR system software was not user
      friendly. Additionally, the software has limitations when preparing a route’s data,
      such as lines-of-travel 9 for city parks, having more than one mailbox on different
      sides of the same house, and having cluster box units, which are normally used
      for centralized delivery. Additionally, the COR system is a stand-alone system
      that does not retain line-of-travel information once the user exits the program.

    o Data Preparation: Data preparation still requires about 2 to 4 hours for the user to
      input data for each route. Data for each route in a zone must be downloaded
      from DOIS into the COR system and reviewed to ensure the routes are
      contiguous. In the previous audit, the OIG recommended the vice president,
      Information Technology Solutions, resolve performance issues with the Web
      Carrier Optimal Routing (WebCOR 10) system and implement the web-based
      program nationwide. Management agreed to implement the recommendation and
      stated they planned to place WEBCOR into production by December 2009.
      During discussions in August and December 2011, officials informed the OIG that
      internal system configuration issues existed and there was no funding in the FY
      2012 budget for expansion projects, such as WebCOR system.

   In the 21 districts, officials did not always cross-train COR technicians in COR
    database preparation and route adjustment processes to provide stability. Each
    district office had employees designated as COR technicians to perform the route
    adjustment process. To provide optimum performance during the COR route
    adjustment process, COR technicians should be cross-trained in both COR
    processes. Though cross-training is not a requirement, it can be a best practice, due
    to the lack of available personnel to perform duties as COR technicians. In the
    21 districts reviewed, 16 had two technicians or more cross-trained, three had only
    one cross-trained, and two did not have any cross-trained (see Table 2).




8
  In the first COR audit report we recommended that management resolve COR system performance issues, select
and train at least four individuals as COR system subject matter experts, use route inspection data to complete the
data preparation process, complete route adjustments using COR system, and track and monitor vehicle mileage.
The recommendations to resolve COR system performance issues and track vehicle mileage were closed, but
actions were not implemented because management indicated lack of funding to enhance COR. The remaining
recommendations were implemented and closed.
9
  The line of travel is the authorized travel pattern for city delivery routes.
10
   WebCOR is a web-based version of the COR system that the Postal Service planned to implement to enhance
COR and resolve some of the system performance issues.

                                                          4
Carrier Optimal Routing System Phase II                                                 DR-AR-12-005



                      Table 2. COR Technicians Cross-Training Status

                                                                               Number of
                                                                                  COR
                                   Number of COR            Number of COR      Technician
                                   Technician Staff         Technician Staff      Staff
                                     Trained for              Trained for      Trained for
                                        Data                    Route             Both
            Districts                Preparation             Adjustments       Processes
      Albany                              5                        5                2
      Arkansas                            3                        3                1
      Central
      Pennsylvania                            6                   20                7
      Chicago                                10                   10               10
      Dallas                                  2                    4                2
      Detroit                                 2                    3                2
      Gateway                                 3                    5                0
      Greater South
      Carolina                                5                    3               3
      Hawkeye                                10                    5               5
      Long Island                             5                    5               5
      Los Angeles                             7                    7               7
      Mid-Carolinas                           2                    5               0
      Northern New
      Jersey                                  6                     8               5
      Northland                               3                     8               3
      Philadelphia Metro                      7                     5               5
      Richmond                               11                     6               6
      Rio Grande                              3                     2               2
      San Francisco                           5                    13               4
      Seattle                                 5                     6               1
      Sierra Coastal                          5                    19               1
      South Jersey                            4                     3               3
      Total                                 109                   145              74
     Source: Postal Service District Delivery Management.


   According to district officials, they did not always cross-train COR technicians
    because staff was not readily available to perform COR system duties. The COR
    technician is not an official Executive and Administrative Schedule Postal Service
    position, therefore, district management used any available personnel to perform the
    function as needed. Some district officials indicated that the Postal Service needs to
    allot funding for permanent COR technician positions to retain continuity and
    stability.

   The Postal Service did not update city delivery handbooks to require the use of the
    COR system to perform route adjustments. Some district management officials

                                                       5
Carrier Optimal Routing System Phase II                                                              DR-AR-12-005



     stated that Handbook M-39 11 and Handbook M-41 12 need to be modified to include
     these standards. In 2005, management provided guidelines for using the COR
     system to perform route adjustments to ensure proper alignment for city delivery
     routes.

An increased focus on using the COR system to adjust, align, and consolidate routes
will reduce workhours. We identified monetary impact of more than $84 million in city
delivery costs.

Global Positioning System Usage With Carrier Optimal Routing System

District officials are not using GPS devices with the COR system to perform route
adjustments. GPS devices are used to track established route time and performance.
The GPS and COR system are two separate programs and district officials were not
mandated by headquarters to use them jointly to make route adjustments. We did
identify that six of the 21 districts reviewed used the GPS devices as a management
tool to track vehicles and determine whether carriers were following the line-of-travel
and times established by COR route adjustments (see Table 3). GPS devices could
also be used to assist management with minimizing fuel usage and conducting street
observations. The existing GPS provides an actual breadcrumb trail report for the
vehicles line-of-travel.




11
   Postal Service Handbook M-39, Management of Delivery Services, dated March 1, 1998, with Postal Bulletin
revisions through March 18, 2004.
12
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, dated March 1, 1998, with
Postal Bulletin revisions through April 5, 2001.

                                                         6
Carrier Optimal Routing System Phase II                                                             DR-AR-12-005



                                            Table 3. GPS Usage


                                                                        Not
                                         Using GPS to              Using GPS to
                                             Track                 Track Carriers
                                         Carriers After                After              No GPS
                                          COR Route                  COR Route            Devices
                  Districts              Adjustments                Adjustments          Deployed
             Albany                                                       
             Arkansas                                                     
             Central
             Pennsylvania                          
             Chicago                                                       
             Dallas                                                        
             Detroit                               
             Gateway                                                       
             Greater South
             Carolina                              
             Hawkeye                                                                            
             Long Island                        
             Los Angeles 13               No response          No response
             Mid-Carolinas                                                                      
             Northern New
             Jersey                                
             Northland                                                     
             Philadelphia Metro                                                                 
             Richmond                                                      
             Rio Grande                                                    
             San Francisco                                                 
             Seattle                               
             Sierra Coastal                                                
             South Jersey                                                                       
                            Total                 6                      10                    4
            Source: Postal Service District Delivery Management.


According to some district officials, they usually used GPS devices to monitor carriers
who were exceeding time limits established for their routes. Further, officials indicated
the GPS program is a volunteer program; therefore all vehicles are not equipped with
GPS devices. There were a total of 3,344 GPS devices in the 21 districts reviewed.
Some district managers expressed concern regarding the GPS program, such as the
limited number of devices, their longevity, and the excessive time it takes to repair
disabled devices since there is one vendor nationwide who maintains the devices.

13
  Los Angeles District officials did not respond to our numerous requests regarding whether they used GPS to track
carriers after COR adjustments.

                                                         7
Carrier Optimal Routing System Phase II                                                         DR-AR-12-005



An earlier OIG report on the GPS program acknowledged the possibility of integrating
the COR system with GPS as the technology is refined and embraced. 14 We are not
making a recommendation for GPS usage with the COR system, because the previous
GPS report included a broad recommendation in this area.

Recommendations

We recommend the vice president, Engineering Systems:

1. Continue to pursue funding to resolve performance issues with the Web Carrier
   Optimal Routing system and implement the web-based program nationwide.

We recommend the vice presidents, Area Operations, require district managers to:

2. Re-emphasize performing route adjustments using the Carrier Optimal Routing
   system to achieve an annual economic impact of more than $84 million.

3. Cross-train existing and additional personnel in both Carrier Optimal Routing system
   database preparation and route adjustment processes to ensure the availability of
   adequately trained resources.

We recommend the vice president, Delivery and Post Office Operations:

4. Update Postal Service Handbook M-39, Management of Delivery Services, and
   Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities, to
   establish standards for using the Carrier Optimal Routing system to perform route
   adjustments.

Management’s Comments

Management disagreed with the finding and recommendation 1, but provided alternate
actions that should correct the deficiency. Management agreed in principle with the
finding and recommendation 2, but disagreed with the monetary impact. In addition,
management agreed with the finding and recommendation 3 and disagreed with the
finding and recommendation 4.

Regarding recommendation 1, the vice president, Engineering Systems disagreed with
the finding and recommendation. Management stated that WebCOR was developed
and tested, but could not deliver the required performance or response time due to the
architectural constraints of the operating environment. Engineering is working with
Delivery Operations to make substantial improvements in the existing COR application
that will achieve the same benefits as WebCOR. The first phase of the enhancements
will be completed at the end of FY 2012 with additional enhancements completed in
FY 2013.

14
  Global Positioning System: End-to-End Platform and Actionable, Robust Reports Needed to Achieve Goals and
Potential Return-on-Investment (Report Number DR-MA-11-003, dated September 30, 2011).

                                                      8
Carrier Optimal Routing System Phase II                                      DR-AR-12-005




For recommendation 2, the vice president, Delivery and Post Office Operations, and all
seven areas agreed in principle with the finding and recommendation, but disagreed
with the monetary impact. The vice president, Delivery and Post Office Operations,
stated that virtually all route adjustments should be completed using the COR system,
with the exception of routes where using the system would not be conducive to making
the adjustments. Area management stated that they have been emphasizing and will
continue to emphasize maximizing the use of the COR system to perform route
adjustments. Additionally, Southern and Eastern Area management stated they will
issue letters by July 13 and August 1, 2012, respectively, to districts to further
emphasize using the COR system and serve as policy reminders. However, Great
Lakes Area management disagreed in part with the recommendation, stating that the
COR system can only be used in zones in delivery units using the DOIS.

Management disagreed with the monetary impact. Specifically, management stated the
cost savings assumed that all routes could be adjusted using COR, with no
consideration of preparation and formal route inspection costs, and that routes
previously adjusted with COR should reduce estimated cost savings. Further,
management stated that FY 2012 and FY 2013 projected savings should be reduced as
the number of COR adjustments increase and that overtime rates inflated the potential
savings. Additionally, Pacific Area management stated that the number of routes used
to calculate cost savings for their area was incorrect.

For recommendation 3, management agreed with the finding and recommendation.
Management stated that cross-training COR technicians in both the data preparation
and route adjustment processes would be beneficial. Management stated that
technicians familiar with both processes are more productive and tend to make fewer
errors. Management has conducted and will continue to conduct train-the-trainer
classes at the district level to ensure there are adequate trained resources available to
complete route adjustments, with training sessions scheduled later in 2012 and FY 2013

Regarding recommendation 4, the vice president, Delivery and Post Office Operations,
disagreed with the finding and recommendation. Management stated that inserting
references to the COR system in Handbooks M-39 and M-41 is not necessary. COR is
an accepted management tool for route adjustments that is consistent with all
adjustment procedures in these handbooks. Management stated they did not recognize
when district management does not use COR since the tool is not being mentioned by
name in the handbooks as legitimate. See Appendix C for management’s comments, in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3 and management’s corrective actions should resolve the issues identified in the
report. However, we do not consider management's comments to be responsive to
recommendation 4.

                                            9
Carrier Optimal Routing System Phase II                                                           DR-AR-12-005




The vice president, Engineering Systems, disagreed with recommendation 1, but
provided alternative actions that should correct the deficiency. We acknowledge in the
report that management informed the OIG in August and December 2011 that there was
no funding for WebCOR. However, management has begun working with Delivery
Operations to enhance the COR system with plans for continuous improvements to the
system’s functionality, which will be funded and delivered in FY 2013.

Management agreed in principle with recommendation 2, but disagreed with the
monetary impact. Also, there was a partial disagreement by Great Lakes Area
management regarding the belief that the COR system can only be used in zones in
delivery units that use DOIS. We agree and our audit only included zones with 10 or
more motorized routes in delivery units that use DOIS.

Regarding the monetary impact:

    Our calculations included the number of routes not adjusted using the COR system
     in DOIS units with 10 or more motorized routes for the period ending February 29,
     2012. 15 Per the JARAP, formal route inspections were not required. We recognize
     route adjustments were ongoing, therefore additional routes may have been
     adjusted after our cut-off period.

    Preparatory costs were not a factor because the COR databases had already been
     prepared for all zones with ten or more routes nationwide and also because this is a
     one-time investment and the Postal Service can use the databases for all future
     adjustments.

    Declines in available routes as more adjustments are performed had no bearing on
     our funds put to better use, because we did not claim savings on performing two
     route adjustments, but rather the 2-year impact of performing one route adjustment.

    We used the city letter carrier Level 2 annual overtime rate to calculate cost savings
     because it is the OIG's practice that, when we can eliminate hours but are unable to
     eliminate full positions, we claim the hours as overtime. Since overtime hours
     existed in the districts reviewed, reducing the hours worked will reduce that
     overtime. 16

Regarding recommendation 3, management has conducted and will continue to conduct
train-the-trainer classes at the district level to ensure that adequate training resources
are available to complete adjustments, with training sessions scheduled later in 2012
and FY 2013.


15
   The number of routes adjusted using COR for the monetary calculation was provided by Postal Service
Headquarters
16
   We discussed the monetary impact methodology and dollar amounts during the audit and exit conferences with
headquarters and area officials.

                                                       10
Carrier Optimal Routing System Phase II                                   DR-AR-12-005



The intent of recommendation 4 was to establish standards for using the COR system
to perform route adjustments. During our audit, we found inconsistencies in
understanding the requirement for COR usage among district management. Inclusion of
COR in the Postal Service handbooks could eliminate these misunderstandings and
clarify exceptions to COR usage.

The OIG considers recommendations 1, 2, and 3 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                          11
Carrier Optimal Routing System Phase II                                         DR-AR-12-005



                             Appendix A: Additional Information
Background

The Postal Service’s mission is to provide the nation with reliable, affordable, universal
mail service. Delivering the mail is the largest postal operation and also tends to be
labor- and fuel-intensive. In FY 2011, the Postal Service reduced city delivery routes
nationally despite an increase of 290,713 city delivery points and mail volume decline.
There were nearly 8.3 million fewer delivery workhours used due to route adjustments
and effective growth management.

The Postal Service implemented the COR system in October 2005. COR is a computer
modeling carrier routing and travel optimization program that uses algorithms to
configure compact contiguous routes and determine safe, efficient travel patterns and
relays based on actual volume. COR is compatible with DOIS and receives delivery and
route adjustment files directly from DOIS to complete route adjustments. The benefits of
using COR include reduced workhours and vehicle costs, improved carrier safety, and
more accurate route maps and lines-of-travel.

Postal Service Memorandum and the JARAP MOU outlined using the COR system to
perform route adjustments to properly align city delivery routes. To adjust routes,
management prepare the route information, which includes, ZIP Codes, addresses,
geographic or map information, and other pertinent route data from DOIS and puts the
information into the COR system to adjust routes. The COR processes the data to
consolidate routes, and configure each route’s line-of-travel, park points, and route time.
Management then reviews COR system results and conducts a street validation to
make any corrections, and finalize the route adjustments.

On April 30, 2010, the Postal Service and National Association of Letter Carriers
(NALC) signed a route evaluation and adjustment agreement, the JARAP, which
provides for evaluation and adjustment of any city route that either party determines
should be evaluated. All route evaluation and adjustment decisions are made jointly by
teams composed of NALC and Postal Service representatives. Additionally, on March
22, 2011, the Postal Service and NALC updated, signed, and reissued the JARAP MOU
agreement for continued use through 2011.

The Postal Service uses GPS technology in some of its delivery operations to help
delivery managers monitor and manage the city delivery street function and enhance
the street management activity. GPS technology uses a web-based program with input
from GPS data collection devices installed in Postal Service vehicles. The information is
collected and sent to the web-based program that provides graphical and report
information by vehicle and fleet summaries. GPS data collection is performed with
existing Postal Service policy and procedures for street management.




                                             12
Carrier Optimal Routing System Phase II                                            DR-AR-12-005




Objective, Scope, and Methodology

Our objective was to review the Postal Service’s use of the COR system to adjust and
consolidate routes. We also reviewed the Postal Service’s use of GPS with the COR
system.

To accomplish our objective we:

      Reviewed applicable documentation, policies, and procedures such as: Handbook
       M-39 and Handbook M-41; Memorandums of Agreement and MOUs between the
       Postal Service and NALC regarding the Route Adjustment Process; and a
       headquarters policy memorandum regarding the COR system and route
       adjustments.

      Obtained and analyzed COR data for city carrier routes compiled by Postal Service
       Headquarters officials in the selected districts. 17

      Obtained and analyzed data for districts and delivery zones from the COR system
       and DOIS.

      Judgmentally selected three districts from each of the seven Postal Service areas
       and reviewed all zones with 10 or more city routes in each district.

      Conducted meetings with headquarters and area officials.

      Conducted site visits and interviewed district officials.

      Interviewed appropriate delivery operations managers at the areas and in the
       districts to obtain information on the policies and procedures for performing carrier
       route adjustments and supporting performance documentation.

We conducted this performance audit from August 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with Postal Service Headquarter officials on March 21,
2012, and with area management officials from March 23 to 26, 2012, and included their
comments where appropriate.

We assessed the reliability of COR adjustment data by reviewing existing DOIS and
COR-adjusted data and obtaining verification of route adjustments performed by
17
     COR data for the period ending February 29, 2012.

                                                         13
Carrier Optimal Routing System Phase II                                       DR-AR-12-005



headquarters personnel. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

                                            Final
                                           Report        Monetary
   Report Title          Report Number      Date          Impact          Report Results
Global Positioning         DR-MA-11-003   9/30/2011         None       GPS technology has
System: End-to-End                                                     been implemented on
Platform and                                                           only 3 percent of delivery
Actionable, Robust                                                     vehicles and not on trucks
Reports Needed to                                                      that transport mail.
Achieve Goals and                                                      Existing GPS has helped
Potential Return-on-                                                   in street management
Investment                                                             and anecdotally curtailed
                                                                       negative behavior and
                                                                       provided a basis for
                                                                       return-on-investment.
                                                                       However, the Postal
                                                                       Service could develop an
                                                                       end-to-end,
                                                                       single-sourced GPS
                                                                       platform and back-office
                                                                       accountability for its entire
                                                                       fleet with a focus on cost
                                                                       savings. Management
                                                                       generally agreed with the
                                                                       findings and
                                                                       recommendations.
Use of the Carrier         DR-AR-10-001   10/15/2009    $323,158,121   While the Postal Service
Optimal Routing                                                        completed 15,634 routes
System                                                                 using the COR system, it
                                                                       did not complete an
                                                                       additional 39,237 routes
                                                                       in the 32 districts
                                                                       reviewed. We also found
                                                                       that only three of the 32
                                                                       districts reviewed were
                                                                       able to provide
                                                                       information on route
                                                                       mileage changes.
                                                                       Management generally
                                                                       agreed with our findings
                                                                       and recommendations;
                                                                       however, three of the six
                                                                       areas reviewed did not
                                                                       agree with the potential
                                                                       monetary impact.




                                           14
Carrier Optimal Routing System Phase II                                                               DR-AR-12-005




                                       Appendix B: Monetary Impact

We estimated more than $257,958,873 over 3 years in questioned costs for the 63,505
routes not adjusted with the COR system and funds put to better use in 47 districts.

         Recommendation                         Impact Category                             Amount
               2                               Questioned Costs 18
                                                                                           $84,446,027
                     2
                                           Funds Put to Better Use 19                    $173,512,846
                  Total                                                                  $257,958,873

We estimated the total monetary impact by each area and district for 3 years, from
FYs 2011 through 2013. See Tables 5 and 6, respectively.

                                   Table 5. Area Monetary Impact 20



                     Questioned            Funds Put to              Funds Put to            Total Monetary
                     Costs in FY           Better Use in             Better Use in            Impact Over
   Area                 2011                 FY 2012                   FY 2013                  3 Years
Capital
Metro                    $8,498,031              $8,715,601               $8,745,464                $25,959,097
Eastern                  14,592,707              14,966,315               15,017,595                 44,576,617
Great
Lakes                  24,597,264               25,227,013               25,313,449                 75,137,726
Northeast              13,411,642               13,755,012               13,802,142                 40,968,796
Pacific                11,856,225               12,159,773               12,201,436                 36,217,433
Southwest               4,454,734                4,568,785                4,584,440                 13,607,959
Western                 7,035,425                7,215,549                7,240,272                 21,491,246
Total                 $84,446,027              $86,608,049              $86,904,797               $257,958,873




18
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, costs. May be
recoverable or unrecoverable and usually a result of historical events.
19
   Funds that could be used more efficiently by implementing recommended actions.
20
   Figures may vary due to rounding.

                                                         15
 Carrier Optimal Routing System Phase II                                                                DR-AR-12-005


                                                                                 21
                                         Table 6. District Monetary Impact
                                        Annual Savings      Annual Savings            Annual Savings      Totals for 3
              District                       FY 2011            FY 2012                  FY 2013            Years
Alabama                                         $631,241            $647,402                 $649,620      $1,928,263
Albany*                                           229,335            235,207                  236,012         700,554
Appalachian                                       278,019            285,137                  286,114         849,271
Arizona                                           913,404            936,789                  939,999       2,790,192
Arkansas*                                         251,916            258,366                  259,251         769,533
Atlanta                                           771,908            791,671                  794,383       2,357,962
Baltimore                                         739,590            758,525                  761,124       2,259,239
Central Illinois                               5,804,019           5,952,616                5,973,011      17,729,645
Central Pennsylvania*                             293,143            300,648                  301,678         895,469
Chicago*                                       5,746,840           5,893,973                5,914,168      17,554,982
Cincinnati                                     2,208,204           2,264,739                2,272,499       6,745,442
Colorado/Wyoming                               1,914,854           1,963,879                1,970,608       5,849,340
Connecticut Valley                             2,308,680           2,367,788                2,375,901       7,052,369
Dallas*                                        1,232,442           1,263,996                1,268,327       3,764,765
Detroit*                                       5,333,333           5,469,879                5,488,621      16,291,833
Gateway*                                          268,490            275,364                  276,307         820,161
Greater Boston                                 2,659,001           2,727,078                2,736,422       8,122,501
Greater Indiana                                1,004,558           1,030,277                1,033,807       3,068,641
Greater Michigan                               1,227,885           1,259,322                1,263,636       3,750,843
Greater South Carolina*                            42,055             43,132                   43,280         128,467
Greensboro                                     3,930,391           4,031,019                4,044,830      12,006,240
Hawkeye*                                          335,612            344,205                  345,384       1,025,201
Kentuckiana                                       266,004            272,814                  273,749         812,567
Lakeland                                       5,212,140           5,345,583                5,363,899      15,921,622
Long Island*                                   2,857,675           2,930,839                2,940,881       8,729,395
Los Angeles*                                   6,096,126           6,252,201                6,273,623      18,621,950
Mid-Carolinas*                                 1,256,888           1,289,068                1,293,484       3,839,440
Mississippi                                        52,414             53,755                   53,940         160,109
Nevada/Sierra                                     197,638            202,698                  203,393         603,729
North Florida                                      34,804             35,695                   35,818         106,317
Northern New England                              233,271            239,243                  240,063         712,578
Northern New Jersey*                           5,123,679           5,254,858                5,272,862      15,651,399
Northern Ohio                                  1,662,109           1,704,663                1,710,504       5,077,275
Northern Virginia                                 430,081            441,092                  442,603       1,313,776
Northland*                                     2,323,182           2,382,661                2,390,825       7,096,668
Philadelphia Metro*                            4,704,371           4,824,814                4,841,346      14,370,531
Richmond*                                      1,327,118           1,361,096                1,365,759       4,053,973
Rio Grande*                                       964,989            989,695                  993,086       2,947,769
Salt Lake City                                    451,005            462,552                  464,136       1,377,693
San Francisco*                                 1,340,998           1,375,331                1,380,044       4,096,373
Seattle*                                          899,731            922,766                  925,928       2,748,424
Sierra Coastal*                                4,419,101           4,532,240                4,547,769      13,499,110
South Florida                                     603,895            619,356                  621,478       1,844,729
South Jersey*                                  1,173,400           1,203,441                1,207,565       3,584,406
Suncoast                                          683,033            700,520                  702,920       2,086,473
Tennessee                                         165,113            169,340                  169,920         504,373
Western New York                               3,842,345           3,940,718                3,954,220      11,737,283
TOTALS                                        84,446,027          86,608,049              86,904,797      257,958,873


 21
      Figures may vary due to rounding. The asterisk identifies districts reviewed in COR Phase I.

                                                             16
Carrier Optimal Routing System Phase II                                       DR-AR-12-005



Notes:

   We calculated questioned costs using the estimated total average hours that could
    be reduced per day on routes in the 47 reviewed districts that had not been adjusted
    using the COR system multiplied by the city letter carrier Level 2 annual overtime
    rate for FY 2011.

   We calculated funds put to better use for FYs 2012 and 2013 using the city letter
    carrier Level 2 annual overtime rate for FYs 2012 and 2013.

   The escalation factor from FYs 2011 to 2012 is $0.68 cents.

   The escalation factor from FYs 2012 to 2013 is $0.09 cents.

We based the escalation factor on the Postal Service’s National Average Labor Rates
Table, FY 2011 Actual, FYs 2012 and 2013 Projection.




                                            17
Carrier Optimal Routing System Phase II                          DR-AR-12-005



                             Appendix C: Management’s Comments




                                            18
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          19
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          20
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          21
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          22
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          23
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          24
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          25
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          26
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          27
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          28
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          29
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          30
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          31
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          32
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          33
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          34
Carrier Optimal Routing System Phase II        DR-AR-12-005




                                          35
